No. ____________
IN THE

MARLON DARREL EVANS,

Petitioner,
v.
AMY MILLER, WARDEN,

Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

CUAUHTEMOC ORTEGA
Federal Public Defender
MICHAEL PARENTE*
Michael_Parente@fd.org
SAIVANDANA PETERSON
Vandana_Peterson@fd.org
Deputy Federal Public Defenders
321 East 2nd Street
Los Angeles, California 90012
Telephone: (213) 894-2854
Facsimile: (213) 894-0081
Attorneys for Petitioner
*Counsel of Record

Petitioner, Marlon Darrel Evans, by his undersigned counsel, seeks leave to
file the attached Petition for Writ of Certiorari to the United States Court of
Appeals for the Ninth Circuit without prepayment of costs and to proceed in forma
pauperis. Petitioner was represented by counsel in the Ninth Circuit under the
Criminal Justice Act, 18 U .S.C. ยง 3006A(b).
This motion is brought pursuant to Rule 39.1 of the Rules of the Supreme
Court of the United States.
Respectfully submitted,
CUAUHTEMOC ORTEGA
Federal Public Defender

DATED: September 1, 2021
MICHAEL PARENTE*
SAIVAND ANA PETERSON
Deputy Federal Public Defenders
Attorneys for Petitioner
*Counsel of Record

1

